April 9, 2001

JOHN E. POTTER
CHIEF OPERATING OFFICER AND
 EXECUTIVE VICE PRESIDENT

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Audit Report - Review of the Revised Rules Governing Commercial Mail
          Receiving Agencies (Report Number DE-AR-01-002)

This report presents the results of our audit of the revised rules governing commercial
mail receiving agencies (Project Number 00PA013DS000). The audit was initiated in
response to a congressional request for an independent assessment of the Postal
Service’s revision of rules for commercial mail receiving agencies. The audit objectives
were to determine whether (1) Postal Service management fully assessed the impact of
the revised rules, and (2) objections raised in opposition to the revised rules were valid.

Our audit revealed that the Postal Service complied with internal rulemaking procedures
in revising rules for commercial mail receiving agencies. In some cases, the Postal
Service went further in accommodating the affected parties than internal procedures
required. However, the Postal Service did not fully assess the impact of the revised
rules on receiving agencies and their boxholders. In addition, two of the four objections
raised in opposition to the revised rules were valid. Specifically, physical location
information may still be disclosed for victims of violence who have an expired civil
protection order on file or have moved to a different jurisdiction, and commercial mail
receiving agencies and boxholders will incur costs to implement the revised rules.
However, the $1 billion industry estimate of costs was unsupported and overstated.

Management’s comments were responsive to two findings and recommendations, but
nonresponsive to one finding and recommendation. They indicated they had modified
the Inspection Service reporting system to identify fraud involving both private
mailboxes and post office boxes. Management also stated they will reissue instructions
to emphasize protective orders and clarify the actions taken after the protective order
has expired or the person moves, including the need to consult counsel in these
instances. However, management disagreed with our first recommendation that in the
future proposed changes to the rules governing commercial mail receiving agencies
address the magnitude of the problem, include a cost impact analysis, and identify
alternative solutions. We view recommendation one as unresolved and plan to pursue it
through the audit resolution process. The Office of Inspector General (OIG) considers
recommendations one, two, and three significant and, therefore, require OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until OIG provides written confirmation that the
recommendations can be closed. Management comments in their entirety are included
in the appendix to this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have questions or need additional information, please contact Tracy A. Lapoint,
acting deputy assistant inspector general, Business Operations, or me at (703) 248-
2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: John R. Gunnels
Review of the Revised Rules Governing                       DE-AR-01-002
 Commercial Mail Receiving Agencies


                                        TABLE OF CONTENTS

Part I

Executive Summary                                              i

Part II                                                        1


Introduction                                                   1


   Background                                                  1

   Objectives, Scope, and Methodology                          3

   Prior Audit Coverage                                        4


Audit Results                                                  5


   Need for Revised Rules                                      5

      Magnitude of the Problem and Ability to Curb Fraud       6

      Regulatory Impact Analysis and Alternatives              7

   Recommendations                                             8
   Management's Comments                                       8

   Evaluation of Management's Comments                         9


   Validity of Claims                                         11 

      Public Disclosure of Physical Location                  11 

      Cost of Revised Rules                                   12 

      Treatment of Boxholders                                 14 

      Alleged Retaliation                                     14 

   Recommendation                                             15
   Management's Comments                                      15 

   Evaluation of Management's Comments                        15 


Appendix. Management’s Comments                               17 

Review of the Revised Rules Governing                                             DE-AR-01-002
 Commercial Mail Receiving Agencies


                                  EXECUTIVE SUMMARY
 Introduction 	                We conducted an audit of the Postal Service’s revisions of
                               rules governing commercial mail receiving agencies
                               (receiving agencies) and their boxholders. Our audit was
                               initiated in response to a request from the then Ranking
                               Minority Member of the Subcommittee on the Postal
                               Service, House Committee on Government Reform. The
                               audit objectives were to determine whether (1) Postal
                               Service management fully assessed the impact of the
                               revised rules, and (2) objections raised in opposition to
                               revised rules were valid.

 Results in Brief 	            Our audit revealed that the Postal Service complied with
                               internal rulemaking procedures in revising rules for
                               commercial mail receiving agencies. In some cases, the
                               Postal Service went further in accommodating the affected
                               parties than internal procedures required. However, the
                               Postal Service did not fully assess the impact of the revised
                               rules on the receiving agencies and their boxholders. In
                               particular, the Postal Service did not demonstrate the need
                               for regulatory change by presenting statistical or scientific
                               data to support its claims of mail fraud conducted through
                               private mailboxes. In addition, it did not show how the
                               regulations would curb fraud, assess the impact of the
                               proposed rules on receiving agencies and private
                               boxholders, or consider alternatives to revising the rules.

                               The Postal Service was not legally required to perform a
                               detailed analysis to justify proposed changes to regulations
                               like most federal agencies. However, considering that over
                               10,000 receiving agencies and their boxholders were
                               impacted by the proposed revised rules, a better business
                               practice would have been to take into account the concerns
                               from all sources, including all competing businesses.
                               Enactment of the revised rules created the appearance that
                               the Postal Service misused its regulatory authority to hinder
                               competition and contributed to public perception that
                               associated costs for implementing the revised rules were
                               unnecessary and burdensome.

                               Further, two of the four objections raised in opposition were
                               valid. Specifically, the Postal Service revised the rules to
                               further restrict public disclosure of physical location
                               information, however, there are still concerns that
                               information may be released on individuals who have



                                                i
Review of the Revised Rules Governing                                              DE-AR-01-002
 Commercial Mail Receiving Agencies


                               expired civil protection orders on file or have relocated to a
                               different jurisdiction. Claims that receiving agencies will
                               incur additional costs to implement the rules were also valid.
                               However, the $1 billion industry estimate was unsupported
                               and resulted in overstated costs. Additionally, we were
                               unable to substantiate claims that the revised rules treated
                               private boxholders unfairly or that the Postal Service revised
                               the rules to retaliate against the receiving agency industry
                               for a complaint filed with the Postal Rate Commission.

 Summary of                    To avoid negative public perception of proposed changes to
 Recommendations               receiving agency rules, and to ensure better business
                               practices, we recommend that in the future, the chief
                               operating officer and executive vice president require
                               supporting justification, which addresses the magnitude of
                               the problem and cost implications associated with proposed
                               changes.

                               To assess the effectiveness of the revised rules and
                               quantify the magnitude of fraudulent activity, we recommend
                               the chief postal inspector modify the tracking system to
                               include both receiving agency and post office boxholders.

                               To ensure physical location information is not improperly
                               disclosed, we also recommend the chief operating officer
                               and executive vice president instruct postmasters to seek
                               advice from field legal counsel when civil protection orders
                               on file have expired or individuals have relocated to different
                               jurisdictions.

 Summary of                    Management disagreed with our finding that it did not fully
 Management's                  assess the revised rules. They also stated with regard to
 Comment                       our first recommendation that future proposed changes
                               should address the magnitude of the problem, include a
                               cost impact analysis, and identify alternative solutions, that,
                               as in the past, procedures will be decided on a case-by-
                               case basis. Management indicated the magnitude of the
                               problem was demonstrated by the results of Inspection
                               Service investigations, State Attorneys General testimonies,
                               and interaction with the law enforcement community,
                               mailing industry, and financial institutions. They also stated
                               the Postal Service was not able to calculate a reasonable
                               cost estimate, because the revised rules did not create
                               significant new requirements and only clarified existing
                               rules. In addition, they stated that by making specific
                               accommodations, changes and clarification to the rules as a


                                                ii
Review of the Revised Rules Governing                                            DE-AR-01-002
 Commercial Mail Receiving Agencies


                               result of numerous meetings with industry representatives
                               and interested groups and notice-and-comment rulemaking
                               procedures, management had considered alternative
                               solutions.

                               Management agreed with the remaining two findings and
                               recommendations. They indicated they had modified the
                               Inspection Service reporting system to identify fraud
                               involving both private mailboxes and post office boxes.
                               Management also stated they will reissue instructions to
                               emphasize protective orders and clarify actions taken after
                               the protective order has expired or the person moves,
                               including the need to consult counsel in these instances.
                               Management’s comments, in their entirety, are included in
                               the appendix to this report.

 Overall Evaluation of         Management’s comments were responsive to two findings
 Management’s                  and recommendations, but nonresponsive to one finding
 Comments                      and recommendation. We disagree with management’s
                               assertion that they adequately demonstrated the need for
                               revising the rules. Their basis for quantifying the magnitude
                               of the problem did not include background studies regarding
                               fraud involving receiving agencies and post office boxes, or
                               any analytical studies to identify trends or determine the
                               frequency, location, nature, or monetary loss of illegal
                               activities. We also disagree with management’s position
                               that the revised rules would not significantly impact
                               receiving agencies and customers. Some of the rules
                               represented significant changes that could cost receiving
                               agencies and their customers millions of dollars. In
                               addition, we disagree that the Postal Service’s consideration
                               of variations to the rules equated to it considering
                               alternatives to revising the rules. We view this
                               recommendation as unresolved and plan to pursue it
                               through the audit resolution process.




                                               iii
Review of the Revised Rules Governing                                               DE-AR-01-002
 Commercial Mail Receiving Agencies


                                        INTRODUCTION
 Background 	                  A commercial mail receiving agency (receiving agency) is a
                               business that offers private mailboxes and accepts mail for
                               customer pickup or remail to the addressee. Today, there
                               are over 10,000 receiving agencies that serve over 800,000
                               customers. It is generally recognized that receiving agency
                               customers use their boxes for legitimate purposes.
                               However, some individuals have used receiving agencies to
                               conduct deceptive and illegal mail scams.

                               To improve security of the mail and protect the interests of
                               the general public, the Postal Service published proposed
                               changes to receiving agency regulations. The proposed
                               rules would also bring the receiving agencies in line with the
                               rules that govern post office boxholders. The first notice of
                               proposed revisions to the rules was published in the Federal
                               Register in August 1997 for 30 days, and no comments
                               were received. At the request of the receiving agency
                               industry, the Postal Service republished the proposed
                               regulations in November 1997 for an additional 30 days.

                               Approximately 8,000 comments opposing the changes were
                               received from receiving agencies and their boxholders. The
                               majority of the comments were simple form letters from
                               boxholders complaining of:

                                  •	 Use of a private mailbox designator instead of
                                     suite/apartment number.

                                  •	 Disclosure of physical address location information.

                                  •	 Unnecessary and burdensome costs to implement
                                     revised rules.

                                  •	 Differential treatment based on the requirement to
                                     refile address information and provide two forms of
                                     identification.

                                  •	 The Postal Service's use of regulatory authority to
                                     hinder competition.

                                  •	 Quarterly reporting of customer information.

                               In the October 1999 testimony before the House
                               Subcommittee on Regulatory Reform and Paperwork

                                                1
Review of the Revised Rules Governing                                              DE-AR-01-002
 Commercial Mail Receiving Agencies


                               Reduction, concerns from the receiving agency industry
                               were expressed about the Postal Service's exemption from
                               federal rulemaking requirements.

                               About a dozen responses from mailing and financial
                               industry associations, consumer groups, state offices of
                               attorney general, and law enforcement organizations
                               supported the rules.

                               The final rules were published on March 25, 1999, and were
                               to be effective April 26, 1999. However, based on
                               comments from the receiving agencies and their
                               boxholders, elements of the requirements were phased in at
                               later dates to facilitate implementation. Opposition to the
                               final rule, however, continued from various interest groups,
                               such as the National Coalition Against Domestic Violence,
                               National Association for the Self-Employed, and the Cato
                               Institute. In addition, Congress held hearings on the revised
                               rules, and Postal Service officials repeatedly met with
                               receiving agencies and their boxholders. This resulted in a
                               joint receiving agency industry and Postal Service working
                               group to modify and clarify the final rules. Currently, the
                               rules provide that receiving agencies:

                               •	 Register with the Postal Service within ten days of the
                                  April 26,1999, implementation date. This was a
                                  one-time requirement.

                               •	 Require two forms of identification from boxholders, one
                                  of which must include a photograph.

                               •	 Are not authorized to deliver mail unless a current
                                  customer application form was on file beginning
                                  June 26, 1999. This requirement was later extended to
                                  August 1999.

                               •	 Are not authorized to accept registered mail.

                               •	 Submit quarterly lists of their boxholders to the Postal
                                  Service.

                               •	 Add new postage to remail items for at least six months,
                                  rather than indefinitely. After six months, the receiving
                                  agency will endorse and return First-Class Mail to the
                                  post office without new postage for subsequent return to
                                  sender.

                                                2
Review of the Revised Rules Governing                                              DE-AR-01-002
 Commercial Mail Receiving Agencies



                               •	 Endorse and return First-Class Mail to the post office if
                                  the receiving agency does not have a current customer
                                  application form on file.

                               •	 Are subject to suspension for failure to correct infractions
                                  in a timely manner.

                               Further, the Postal Service strengthened the requirements
                               that it may only release a boxholder’s address pursuant to a
                               written request from government or law enforcement
                               agencies, or a court order.

                               The March 25, 1999, final rule made the use of the
                               designation “PMB” (private mailbox) in customer mailing
                               addresses mandatory. On March 13, 2000, the Postal
                               Service published the rule proposing the “#” sign as an
                               alternative to use of “PMB” designation. On
                               August 16, 2000, the Postal Service published the final rule
                               allowing the use of the “#” sign or the “PMB” designation.

 Objectives, Scope,            This audit was initiated in response to a request from the
 and Methodology               then Ranking Minority Member of the Subcommittee on the
                               Postal Service, House Committee on Government Reform.
                               Our audit objectives were to determine whether (1) Postal
                               Service management fully assessed the impact of the
                               revised rules and, (2) objections raised in opposition to
                               revised rules were valid.

                               To determine if the Postal Service fully assessed the impact
                               on the receiving agencies and their boxholders, we
                               reviewed internal rulemaking procedures for developing and
                               implementing rules. We also evaluated the written
                               justification for revising the rules and analyzed public
                               comments received in response to publication of the
                               proposed rules in the Federal Register.

                               In addition, we reviewed four of the six objections raised in
                               opposition to the revised rules to ascertain if they were
                               valid. These included public disclosure of physical location
                               information, potential cost of implementing the revised rules,
                               unfair treatment of private boxholders, and alleged
                               retaliation. We did not assess objections to use of the
                               private mailbox designator because the Postal Service was
                               considering an alternative to this requirement. We also did



                                                3
Review of the Revised Rules Governing                                                              DE-AR-01-002
 Commercial Mail Receiving Agencies



                                  not review objections to quarterly reporting of customer
                                  listings because annual reporting was already required.

                                  We also analyzed a cost assessment--The U.S. Postal
                                  Service War on Private Mailboxes and Privacy Rights--
                                  published by the Cato Institute and PostalWatch
                                  Incorporated1 on July 30, 1999, to inform the public of the
                                  new rules governing receiving agencies and the costs
                                  incurred to implement these new rules. We focused our
                                  analysis on the adequacy of supporting documentation and
                                  reasonableness of assumptions.

                                  Finally, we interviewed Postal Service management and
                                  ten panelists who testified on the revised rules on
                                  October 19, 1999, before the Subcommittee on Regulatory
                                  Reform and Paperwork Reduction.

                                  We performed our audit at Postal Service Headquarters
                                  between December 1999 and March 2001. The audit was
                                  performed in accordance with generally accepted
                                  government auditing standards, and included such test of
                                  internal controls as were considered necessary under the
                                  circumstances.

    Prior Audit Coverage          We did not identify any prior audits or reviews related to the
                                  objectives of this audit.




1
 The Cato Institute and PostalWatch Incorporated are two nonpartisan organizations whose missions are to achieve
greater involvement of the general public in questions of policy and the proper role of government.



                                                        4
Review of the Revised Rules Governing                                            DE-AR-01-002
 Commercial Mail Receiving Agencies


                                        AUDIT RESULTS

 Need for Revised            Our audit revealed that the Postal Service complied with
 Rules                       internal rulemaking procedures in revising rules for
                             commercial mail receiving agencies. In some cases, the
                             Postal Service went further in accommodating the affected
                             parties than internal procedures required. For example, the
                             Postal Service publicized the proposed rules in the Federal
                             Register for public comment and worked with law
                             enforcement agencies, the mailing industry, and financial
                             institutions to modify the rules. Furthermore, rule
                             implementation dates were extended to reduce the financial
                             impact on receiving agencies and their customers.

                             However, the Postal Service did not fully assess the impact
                             on the receiving agencies and their boxholders. In particular,
                             the Postal Service did not demonstrate the need for
                             regulatory change by presenting statistical or scientific data
                             to support its claims of mail fraud conducted through private
                             mailboxes or show how the regulations would curb fraud,
                             assess the impact of the proposed rules on receiving
                             agencies and boxholders, or consider alternatives to revising
                             the rules. According to Postal Service officials, the
                             magnitude of the problem was demonstrated by the results of
                             Inspection Service investigations, States Attorney General
                             testimony, and interaction with the law enforcement
                             community, mailing industry, and financial institutions. They
                             also stated that the Postal Service was not able to calculate a
                             reasonable cost estimate, but that was not unreasonable
                             because the revised rules did not create significant new
                             requirements and only clarified existing rules. In addition,
                             they stated that by making specific accommodations,
                             changes, and clarification to the rules as a result of
                             numerous meetings with industry representatives and
                             interested groups and notice-and-comment rulemaking
                             procedures, management had considered alternative
                             solutions.

                             However, considering that over 10,000 receiving agencies
                             and their boxholders were impacted, a better business
                             practice would have been to take into account the concerns
                             from all sources, including competing businesses. The
                             manner in which the rules were revised gave the impression
                             that Postal Service did not consider the financial impact.
                             Enactment of the revised rules created the appearance that
                             the Postal Service misused its regulatory authority to hinder

                                               5
Review of the Revised Rules Governing                                              DE-AR-01-002
 Commercial Mail Receiving Agencies


                             competition and contributed to public perception that
                             associated costs to implement the revised rules were
                             unnecessary and burdensome.

 Magnitude of the            The Postal Service did not demonstrate the magnitude of the
 Problem and Ability to      problem it sought to alleviate through its regulations. In the
 Curb Fraud                  October 1999 testimony before the House Subcommittee on
                             Regulatory Reform and Paperwork Reduction, the Postal
                             Service indicated the revised rules were intended to deter
                             and prevent mail fraud in receiving agencies. According to
                             21 Inspection Service investigations, fraudulent activities
                             involving receiving agencies increased dramatically over the
                             last decade. For example, the Postal Service reported that
                             during a six-year period in the 1990s an individual used
                             private mailboxes to defraud 880 elderly Americans in
                             14 states out of $128 million.

                             While this was a legitimate concern, the Postal Service did
                             not establish the nature and magnitude of the problem
                             through the use of statistical or scientific data, or detailed
                             studies. For example, the Postal Service did not provide or
                             conduct any background studies regarding fraud involving
                             receiving agencies and post office boxes, or any analytical
                             studies to determine the frequency, location, nature, or
                             monetary loss of illegal activities involving receiving
                             agencies. Such an analysis might have demonstrated the
                             need for the revised regulations. Also in the October 1999
                             testimony, an Inspection Service official indicated the
                             Inspection Service could not determine the magnitude of the
                             problem because investigative results are tracked by type of
                             crime and not by postal or private mailbox. The Inspection
                             Service since has modified its tracking system to include the
                             identification of fraud involving postal and private mail boxes.

                              The Postal Service did not demonstrate how the new
                             regulations would deal with mail fraud, or how much of the
                             problem the regulations would eliminate. For example, the
                             Postal Service maintained that eliminating the use of the
                             address designation “suite” or “apartment” for mail that goes
                             to private mailboxes would reduce the risk of mail fraud and
                             that the use of the delivery address designator of “PMB” for
                             private mailboxes would establish the true address identity of
                             mail delivered to receiving agencies. However, the Postal
                             Service was not able to determine how many cases of mail
                             fraud involve the use of “suite” or “apartment” designations.



                                               6
Review of the Revised Rules Governing                                                                   DE-AR-01-002
 Commercial Mail Receiving Agencies




    Regulatory Impact             The Postal Service did not conduct a regulatory impact
    Analysis and                  analysis or consider alternatives to revising the rules. Since
    Alternatives                  the Postal Service is exempt from various federal
                                  requirements, including Executive Order Number 12866,2 it is
                                  not required to conduct a regulatory analysis mandated for
                                  other federal agencies. Such an analysis includes
                                  determining the justification for the rules, assessing the cost
                                  impact, identifying various options, and evaluating the
                                  effectiveness of proposed actions.

                                  In revising the rules, the Postal Service followed its internal
                                  rulemaking procedures. These procedures require that a
                                  written justification for the proposed rules be prepared and
                                  routed to the relevant vice presidents, and the chief counsel
                                  for concurrence. However, while concurrence was obtained,
                                  the director of Regulatory Studies for the Cato Institute
                                  testified that the written justification for the proposed rules
                                  was not compelling because it failed to demonstrate the
                                  magnitude of the problem or whether the proposed solution
                                  represented an appropriate level of action for the problem
                                  identified.

                                  Also, the Postal Service considered several variations to the
                                  rules, but did not consider alternatives other than revising the
                                  rules. For example, the Cato Institute believed that better
                                  education by local postmasters of receiving agencies would
                                  help deter 90 percent of mail fraud, thus eliminating the need
                                  to revise the rules. Further, the Postal Service’s internal
                                  process does not provide for an assessment of the cost
                                  impact. Postal Service officials indicated the variances in the
                                  size of affected receiving agencies, and the length of time to
                                  replace stationery products prevented a cost assessment
                                  from being made. The Postal Service was not required to
                                  perform a detailed cost/benefit analysis of the proposed
                                  revisions and stated the various cost factors could not be
                                  accurately quantified for such an assessment in any event.




2
  Executive Order Number 12866, was issued on September 30, 1993, to reform and improve the efficiency of the
regulatory process. The objectives of the executive order were to enhance planning and coordination for new and
existing regulations, reaffirm the primacy of federal agencies in the regulatory decision making process, restore the
integrity and legitimacy of regulatory review and oversight, and make the process more accessible and open to the
public.



                                                           7
Review of the Revised Rules Governing                                            DE-AR-01-002
 Commercial Mail Receiving Agencies



                             Nevertheless, the Postal Service extended a longer grace
                             period for compliance with the rules in order to minimize the
                             cost impact the revisions could impose on private mailbox
                             users.

                             Although the Postal Service complied with its internal
                             process and procedures for rulemaking, the nature of the
                             revised rules and their impact on a competitor industry
                             indicated a deviation from the Postal Service’s normal
                             practice was warranted. Considering the financial impact
                             that regulations can have, rules must be adequately justified
                             to avoid negative public perception. For this reason, the

                             Postal Service should have analyzed the potential costs of
                             the rules and identified alternatives to revising them.

 Recommendation              To avoid the perception that the Postal Service misused its
                             authority to hinder competition, and that associated costs to
                             implement the revised rules were unnecessary and
                             burdensome, we recommend the chief operating officer and
                             executive vice president:

                             1. Ensure that in the future written justification supporting
                                proposed changes to rules governing commercial mail
                                receiving agencies address the magnitude of the problem,
                                include a cost impact analysis, and identify the various
                                options considered.

 Management's                Management disagreed with our finding that it did not fully
 Comments                    assess the revised rules and stated, with regard to our
                             recommendation, that procedures for changes to rules
                             governing receiving agencies will be decided on a case-by-
                             case basis.

                             Management indicated the magnitude of the problem was
                             demonstrated by the results of Inspection Service
                             investigations, State Attorneys General testimonies, and
                             interaction with the law enforcement community, mailing
                             industry, and financial institutions.

                             They also stated that the Postal Service was not able to
                             calculate a reasonable cost estimate, because the revised
                             rules did not create significant new requirements and only
                             clarified existing rules. However, although a cost estimate



                                               8
Review of the Revised Rules Governing                                            DE-AR-01-002
 Commercial Mail Receiving Agencies



                             was not done, management extended regulation compliance
                             dates to minimize the cost impact.

                             In addition, they stated that by making specific
                             accommodations, changes and clarification to the rules as a
                             result of numerous meetings with industry representatives
                             and interested groups and notice-and-comment rulemaking
                             procedures, management had considered alternative
                             solutions

 Evaluation of               Management’s actions are nonresponsive to the
 Management's                recommendation. During the audit, we reviewed all data
 Comments                    provided by the Postal Service including Inspection Service
                             audit reports. The Postal Service stated they provided us
                             with hundreds of cases involving identify theft in support of
                             the rulemaking. However, the Postal Service only provided
                             us with a synopsis of 21 investigations that identified
                             individual fraud cases in 13 states and Washington D.C.
                             Although, this information did show that fraud was a problem
                             it did not sufficiently demonstrate the magnitude of the
                             problem or identify trends. For example, the Postal Service
                             could not demonstrate the rate at which fraudulent activity
                             had increased since 1992, which was the basis for revising
                             the rules.

                             We were also aware that that the Postal Service interacted
                             extensively with the law enforcement community, mailing
                             industry, and financial institutions. However, these actions,
                             while indicative of the Inspection Service’s efforts to
                             coordinate a response to fraudulent activity, did not
                             demonstrate the magnitude of the problem.

                             We also disagree with management’s position that the
                             revised rules would not significantly impact receiving
                             agencies and customers. Some of the rules constituted new
                             requirements. For example, the revised rules prohibited the
                             used of “suite” or apartment” and required the use of a “PMB”
                             designator. This would require receiving agency customers
                             to send change of address notifications. An independent
                             estimate computed this cost at $94 million. Although our
                             analysis found this estimate to be overstated, we concluded
                             that costs nonetheless would total $20 million. Therefore, we
                             maintain that a cost assessment should have been done.
                             The Postal Service stated that a cost estimate was not
                             completed because of the number of receiving agencies and
                             customer turnover rates were unknown. To determine the

                                               9
Review of the Revised Rules Governing                                             DE-AR-01-002
 Commercial Mail Receiving Agencies


                             universe, the Postal Service could have considered
                             techniques such as inquiring with Postal Service district
                             offices, performing a market analysis, obtaining data from the
                             Small Business Administration and Better Business Bureau,
                             and using application forms submitted by receiving agencies.
                             Additionally, customer turnover rates could have been
                             estimated from customer listings provided by receiving
                             agencies.

                             Finally, we disagree that the Postal Service sought to identify
                             alternative solutions. The Postal Service considered several
                             variations to the rules rather than considering alternatives to
                             revising the rules.

                             We view the disagreement on this recommendation as
                             unresolved and plan to pursue it through audit resolution.

 Recommendations 	           To assess the effectiveness of the revised rules and quantify
                             the magnitude of fraudulent activity, we recommend the chief
                             postal inspector:

                             2. Modify the existing tracking system to include the
                                identification of fraud involving both private mailboxes and
                                post office boxes.

 Management's                Management agreed with our recommendation. The
 Comments                    Inspection Service has developed and implemented a
                             tracking system responsive to our recommendation.

 Evaluation of               Management’s comments are responsive to our 

 Management's                recommendation. 

 Comments 





                                               10
Review of the Revised Rules Governing                                              DE-AR-01-002
 Commercial Mail Receiving Agencies



Validity of Claims           Two of four receiving agency objections that we reviewed
                             were valid. Specifically, the Postal Service revised the rules
                             to further restrict public disclosure of physical location
                             information, however, the rules are unclear about releasing
                             this information when a civil protection order has expired or
                             customers have relocated to a different jurisdiction. Also,
                             the objections that receiving agencies will incur additional
                             costs to implement the rules were valid. However, the
                             industry estimate of $1 billion was unsupported and
                             overstated. In addition, we were unable to substantiate
                             claims the revised rules treated receiving agency
                             boxholders unfairly, or that the Postal Service issued its
                             revised rules in retaliation to a complaint filed by the
                             Coalition Against Unfair USPS Competition.

Public Disclosure of         Under the initial proposed rule, the physical location
Physical Location            information of receiving agency customers conducting
                             business with the public could be disclosed to the general
                             public, and the physical location information of any receiving
                             agency customer could be disclosed to law enforcement
                             officials conducting criminal investigations upon verbal
                             request. In an October 1999 hearing before the House
                             Subcommittee on Regulatory Reform and Paperwork
                             Reduction, the National Coalition Against Domestic
                             Violence expressed concerns about the ease with which
                             such information for victims of violence could be released.

                             To address this concern, the Postal Service issued a final
                             rule in January 2000, further restricting release of physical
                             location information. The final rule stated the Postal Service
                             could only disclose information upon written request by
                             government or law enforcement officials or pursuant to a
                             court order. The rule also stated a written request would be
                             denied if an individual had a civil protection order on file.

                             Receiving agency customers and the National Coalition
                             Against Domestic Violence were still concerned with the
                             revised rules because physical location information could be
                             disclosed if a civil protection order on file expired or an
                             individual relocated outside the jurisdiction the civil
                             protection order covered.

                             We recognize that individuals are responsible for
                             maintaining a current civil protection order on file and that
                             the Postal Service has no authority to uphold expired civil


                                               11
Review of the Revised Rules Governing                                                                DE-AR-01-002
 Commercial Mail Receiving Agencies


                                  protection orders. However, our review disclosed the
                                  revised rules are silent on whether physical location
                                  information will be released when an expired civil protection
                                  order is on file or individuals relocate to a different
                                  jurisdiction. As a result of these conditions, release of this
                                  information may be subject to the interpretation of Postal
                                  Service field legal counsel.

                                  Further, disclosure statements on application forms3 did not
                                  reflect the revised disclosure rules published in
                                  January 2000. We discussed this issue with Postal Service
                                  management during the audit, which subsequently updated
                                  the application forms. Therefore, no recommendation is
                                  required.

Cost of Revised Rules 	 According to a July 30, 1999, Cato Institute study,4 the
                        revised regulations would cost receiving agencies and their
                        customers $1 billion. The Postal Service found, and our
                        review confirmed, that the assumptions Cato used to
                        estimate costs were unsupported and that the cost
                        estimates were overstated. For example, the study
                        indicated that private boxholders and receiving agencies
                        would incur $977 million and $89 million, respectively, to
                        implement the revised rules. The $977 million estimate for
                        private boxholders included $537 million for new supplies
                        and $440 million for change of address notification. The
                        estimate assumed there were 2.5 million private boxholders
                        and that there was a 100 percent occupancy rate.

                                  Our audit disclosed that the Cato Institute lacked
                                  documentation to support these assumptions. In fact, a
                                  spokesperson for a major receiving agency indicated the
                                  number of private boxholders could not be accurately
                                  estimated because businesses renting mailboxes vary in
                                  size. Further, the communications director for Mail Boxes
                                  Etc. and spokesperson for the receiving agency industry
                                  estimated the number of private boxholders was closer to
                                  800,000 than 2.5 million. Data was not available to
                                  establish the correct number of private boxholders.
                                  However, the significant difference between estimates



3
  These forms include Postal Service Form 1093, “Application for Post Office Box or Caller Service,” Postal Service
Form 1583, “Application for Delivery of Mail Through Agent,” and Postal Service Form 1583-A, “Application to Act as
a Commercial Mail Receiving Agency.”
4
  Cato Institute Briefing Paper entitled, The U.S. Postal Service War on Private Mailboxes and Privacy Rights.



                                                        12
Review of the Revised Rules Governing                                                               DE-AR-01-002
 Commercial Mail Receiving Agencies



                                 provided by the Cato Institute and an official representative
                                 of the receiving agency industry raises serious questions
                                 about the reliability of the Cato assumptions. Also, because
                                 the turnover rate for private mailboxes is high, the
                                 occupancy rate of boxes cannot be tracked. Nevertheless,
                                 a 100 percent occupancy rate assumption is unreasonable.

                                 Our analysis also disclosed that Cato's $537 million
                                 estimate for new supplies might be overstated. This
                                 estimate does not allow for stock depletion during the one-
                                 year transition and assumes that 2.5 million private
                                 boxholders are current renters and will be renters at the end
                                 of the transition period. We also believe that many of the
                                 small businesses that are likely to use private mailboxes are
                                 printing their own stationery rather than purchasing large
                                 quantities from printing companies. While specific data was
                                 not available, the above factors would reduce the
                                 $537 million estimate proposed by Cato.

                                 The Postal Service also noted that Cato's estimate
                                 regarding address change notification was overstated. For
                                 example, Cato assumed that 2.5 million private boxholders
                                 would require an average of 40 changes of address
                                 notifications at 94 cents5 per notification, for a total of
                                 $94 million. The Postal Service contends that it can provide
                                 a preprinted address change notification card at no cost.
                                 Even relying on Cato’s assumptions, the cost would be only
                                 $20 million by using this card and 20-cents postage per
                                 notification.

                                 In conclusion, we observed that none of the Cato Institute
                                 calculations appeared to be supported by accurate data.
                                 The costs are highly sensitive to the estimate of the number
                                 of boxholders; a number that we have noted is not tracked
                                 by industry. Specifically, the Cato Institute costs were
                                 directly proportional to the assumed number of boxholders;
                                 any change in the assumed number of boxholders changes
                                 the resulting cost by the same factor. For example, if the
                                 number of boxholders was half that assumed by the Cato
                                 Institute, the change of address costs would be half those
                                 published by the Cato Institute, even before addressing the


5
 The 94 cents includes costs such as stationery and postage, and excludes labor costs for preparing address
change notifications.



                                                        13
Review of the Revised Rules Governing                                             DE-AR-01-002
 Commercial Mail Receiving Agencies



                             issues of questionable turnover rate and labor and supply
                             cost assumptions.

Treatment of 	               The Postal Service revised the rules for private boxholders
Boxholders	                  to make them similar to current post office boxholders. A
                             comparison of rules for post office and private boxholders
                             found minimal differences in the treatment of post office
                             customers and receiving agency customers. Specifically:

                             •	 Former private boxholders bear the cost of remailing
                                items for the first six months after termination of services
                                with the receiving agency, whereas post office
                                boxholders do not. However, before the revised rules,
                                private boxholders bore remailing costs indefinitely.

                             •	 Private boxholders can authorize a receiving agency to
                                forward accountable mail without going to the receiving
                                agency, but post office boxholders must present a valid
                                identification to obtain such mail.

                             •	 Private boxholders must refile an updated application
                                form and present two forms of identification, one of
                                which must be a photograph, by April 26, 2000. This
                                was a one-time requirement for current private
                                boxholders to bring them in line with post office
                                boxholders’ rules. Post office boxholders were already
                                required to update their forms and provide photo
                                identification when they renew their post office boxes.

Alleged Retaliation          In May 1996, the Coalition Against Unfair USPS
                             Competition filed a complaint with the Postal Rate
                             Commission alleging the Postal Service was hindering
                             competition by directly competing with receiving agencies.
                             Subsequent to this action, the Postal Service issued the
                             proposed revised rules in August 1997. Due to the timing of
                             Postal Service's actions, the revised rules were perceived
                             as retaliation for the complaint filed by the coalition.

                             A review of postal documents disclosed that the need for
                             the revised rules was first discussed in 1993, three years
                             before the coalition's complaint. The discussions were
                             based on Inspection Service reviews conducted in the early




                                               14
Review of the Revised Rules Governing                                                                 DE-AR-01-002
 Commercial Mail Receiving Agencies


                                  to mid 1990s and a 1995 California state law6 regulating
                                  the receiving agency industry. Two Inspection Service
                                  reports7 recommended revisions to the application and
                                  identification requirements for private boxholders.

                                  Although we found no evidence of retaliation, based on
                                  interviews with representatives from major receiving
                                  agencies and witnesses who testified at the October 1999
                                  congressional hearing, a strong perception existed that
                                  Postal Service was hindering competition. This perception
                                  was based, in part, on the lack of adequate justification for
                                  the revised rules. Preparing a cost/benefit analysis would
                                  have mitigated public reaction by providing a well reasoned
                                  rationale for Postal Service actions.

Recommendation                    To ensure physical location information is not improperly
                                  disclosed, we recommend the chief operating officer and
                                  executive vice president:

                                  3. Instruct postmasters to seek legal counsel before
                                     releasing physical address information when civil
                                     protection orders on file have expired or individuals have
                                     relocated to another jurisdiction.

Management's 	                    Management agreed with our recommendation.
Comments 	                        Management will reissue instructions to emphasize
                                  protective orders. They will also clarify the actions taken
                                  after the protective order has expired or the person moves,
                                  including the need to consult counsel in these instances.

Evaluation of                     Management’s comments are responsive to our 

Management's                      recommendation. 

Comments


Additional                        Management questioned the validity of Cato Institute’ s
Management’s                      statement that by educating postmasters, 90 percent of mail
Comments                          fraud would be deterred. They made this statement
                                  because we found their report to be unreliable when
                                  estimating the cost to implement the revised rules.



6
  California State Law A B 171, effective January 1, 1995, was designed to protect California consumers by regulating
receiving agencies and boxholders.
7
  The Inspection reports included Report on preliminary results of national pilot project to assess DMM compliance by
CMRA’s in the Houston, TX, delivery area, Case 180-1182689 PVC (1), and Central New Jersey District P. O. Box
and CMRA Review, Case 072-1206438-SI (2).



                                                         15
Review of the Revised Rules Governing                                           DE-AR-01-002
 Commercial Mail Receiving Agencies



Evaluation of                By making this statement, our intent was not to validate the
Management’s                 90 percent estimate, but rather to show that training local
Comments                     postmasters could deter fraud. In fact, as stated in
                             management’s comments, the Inspection Service has
                             launched an effort to educate both postmasters and
                             receiving agencies to help identify and prevent fraud.




                                              16
Review of the Revised Rules Governing                 DE-AR-01-002
 Commercial Mail Receiving Agencies


                    APPENDIX. MANAGEMENT’S COMMENTS




                                        17
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        18
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        19
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        20
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        21
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        22
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        23
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        24
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        25
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        26
Review of the Revised Rules Governing        DE-AR-01-002
 Commercial Mail Receiving Agencies




                                        27
